U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

January 6, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: Level the Playing Field, et al. v. Federal Election Commission,
No. 20-649
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on November 9,
2020. The government’s response is now due, after one extension, on January 13, 2021. We
respectfully request, under Rule 30.4 of the Rules of this Court, a further extension of time to and
including February 12, 2021, within which to file a response.
This extension is necessary because the attorneys with principal responsibility for
preparation of the government’s response have been heavily engaged with the press of previously
assigned matters with proximate due dates.
Counsel for petitioners does not object to this further extension.
Sincerely,

Jeffrey B. Wall
Acting Solicitor General
cc:

See Attached Service List

20-0649
LEVEL THE PLAYING FIELD, ET AL.
FEC

ALEXANDRA ANASTASIA EKATERINA
SHAPIRO
SHAPIRO ARATO BACH LLP
500 FIFTH AVENUE
40TH FLOOR
NEW YORK, NY 10110
212-257-4880
ASHAPIRO@SHAPIROARATO.COM

